Case: 18-11207

Date Filed: 05/13/2020

Page: 1 of 6

[DO NOT PUBLISH]

Case: 18-11207

Date Filed: 05/13/2020

Page: 2 of 6

Before WILSON, MARTIN and BLACK, Circuit Judges.
PER CURIAM:

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

Michael Moore appeals his below-guidelines 188-month sentence for being
a felon in possession of a firearm. Moore asserts the district court erred in denying
him an acceptance-of-responsibility reduction and that the district court

No. 18-11207
Non-Argument Calendar

erroneously believed it lacked the authority to give a reduction. Additionally,
Moore contends his prior convictions under Fla. Stat. § 893.13 do not qualify as

D.C. Docket No. 8:17-cr-00354-CEH-CPT-l

serious drug offenses under the Armed Career Criminal Act (ACCA). After
review, we affirm Moore’s sentence.

UNITED STATES OF AMERICA,

I. DISCUSSION

Plaintiff-Appellee,
A. Acceptance ofResponsibility

versus

A two-level reduction applies if the defendant “clearly demonstrates

MICHAEL MOORE,
a.k.a. Michael Paul Moore,
a.k.a. Michael P. Moore,
a.k.a. Michael Nelson,
a.k.a. Michael Paul Nelson,
a.k.a. Michael P. Nelson,
a.k.a. Chris Smith,
a.k.a. Corey Sims,

acceptance of responsibility for his offense.” U.S.S.G. §3El.l(a). The guidelines
commentary provides “[tlhis adjustment is not intended to apply to a defendant
who puts the government to its burden of proof at trial by denying the essential
factual elements of guilt, is convicted, and only then admits guilt and expresses
Defendant-Appellant.

remorse.” U.S.S.G. § 3El.l(a), comment, (n.2). It further states that, if a
defendant proceeds to trial, acceptance-of-responsibility reductions should only

Appeal from the United States District Court
for the Middle District of Florida

occur in “rare situations,” such as “where a defendant goes to trial to assert and
preserve issues that do not relate to factual guilt,” Id.

(May 13, 2020)
2

Case: 18-11207

Date Filed: 05/13/2020

Page: 3 of 6

The district court is in a unique position to evaluate whether a defendant has

Case: 18-11207

Date Filed: 05/13/2020

Page: 4 of 6

firearm traveled in interstate commerce. By objecting to this evidence, Moore was

accepted responsibility for his acts, and we will not set aside such a determination

challenging the ability of the Government to satisfy its burden of proof as to this

“unless the facts in the record clearly establish that the defendant has accepted

element. See U.S.S.G. § 3E1.1, comment, (n.2). Therefore, Moore did not elect to

responsibility.” United States v. Moriarty, 429 F.3d 1012,1022-23 (11th Cir.

go to trial solely to raise the defense of necessity.

2005). The defendant bears the burden of proving he accepted responsibility. Id.
at 1023.

While Moore distinguishes between objections made to dispositive versus
non-dispositive evidence, citing United States v. Gonzalez, 70 F.3d 1236, 1239

The district court did not clearly err in finding Moore did not meet his

(11th Cir. 1995), this is a distinction without difference. Moore’s challenge to the

burden of showing he clearly accepted responsibility for his offense and his case

admissibility of the Government’s exhibits was an attempt to avoid a determination

was not one of the “rare circumstances” where a defendant who went to trial

that the firearm had moved in interstate commerce, which the Government had to

warranted a reduction. See United States v. Tejas, 868 F.3d 1242, 1247 (11th Cir.

prove because Moore had not stipulated to it. And while Moore claims this

2017) (reviewing the district court’s denial of an acceptanee-of-responsibility

evidence was not essential to the Government’s case because it could have proven

reduction under U.S.S.G. §3E1.1 for clear error). Moore conceded he was a

the element by other means, that is immaterial to the fact that Moore put the

convicted felon and that he possessed a firearm, but he did not stipulate to the

Government to its burden at trial and then contested its evidence. Thus, the district

- interstate commerce element. See United States v. Green, 873 F.3d 846, 852 (11th

court did not clearly err in finding that, by challenging evidence offered to show

Cir. 2017) (stating to prove a defendant was a felon in possession of a firearm, the

his guilt, Moore had not clearly demonstrated acceptance of responsibility for the

Government is required to prove (1) the defendant was a convicted felon when he

crime charged.

had possession of the firearm; (2) the defendant knowingly possessed the firearm;

Moore’s argument the district court erroneously believed that challenging an

and (3) the firearm traveled in interstate commerce). While Moore never explicitly

element of an offense at trial barred an acceptance-of-responsibility reduction is

denied this element, his actions at trial show he was not ready to concede the issue.

also unpersuausive. See United States v. Hansen, 262 F.3d 1217, 1255 (11th Cir.

Moore objected to the admission of business records being offered to show the

2001) (stating we review de novo a defendant’s claim the district court mistakenly

3

4

Case: 18-11207

Date Filed: 05/13/2020

Page: 5 of 6

Case: 18-11207

Date Filed: 05/13/2020

Page: 6 of 6

believed it lacked the authority to grant a reduction under the guidelines). Before

Convictions under Fla. Stat. § 893.13 qualify as a “serious drug offense” under the

denying the acceptance-of-responsibility reduction, the court recognized “that a

ACCA. United States v. Smith, 775 F.3d 1262, 1268 (11th Cir. 2014). In Smith,

Defendant may still have the acceptance of responsibility reduction even if he goes

we also analyzed and rejected the necessity of a mens rea element in the

to trial... under certain reasons.” The court further discussed the enumerated

underlying crime to qualify as a serious drug offense under the ACCA. Id.

reasons listed in the Guidelines commentary, even listing potential situations not
listed in the commentary itself. Further, the court explained its decision, noting
. that “[Moore] did not admit the interstate nexus,” and “because he did put the

Moore’s arguments his prior convictions under § 893.13 were not serious
drug offenses are foreclosed by Smith. While Moore claims that Smith was
wrongly decided, this Court is bound to follow it until it is overruled by the

Government to its burden of proof at trial... he is n ot entitled to the reduction.”

Supreme Court or this Court en banc. See United States v. Vega-Castillo, 540 F.3d

Thus, the record does not support that the district court made an error of law as to

1235, 1236 (11th Cir. 2008). Accordingly, we are bound by our holding in Smith

the availability of an acceptance-of-responsibility reduction. Rather, the district

and affirm the district court’s determination that Moore’s prior convictions under

court determined that Moore was not entitled to a reduction under the facts here.

Fla. Stat. § 893.13 were serious drug offenses under the ACCA.

Accordingly, the district court was within its discretion to determine that

II. CONCLUSION

Moore’s objection showed Moore had not accepted responsibility for his acts. As

Accordingly, we affirm Moore’s sentence.

the record reflects the district court understood its discretion in granting or denying

AFFIRMED.

a reduction, no misunderstanding of authority occulted. See Hansen, 262 F.3d at
1257. We affirm the district court’s denial of the acceptance-of-responsibility
reduction.
B. Fla. Stat. §893.13
We review whether a conviction qualifies as a serious drug offense under the
ACCA de novo. United States v. White, 837 F.3d 1225, 1228 (11th Cir. 2016).
5

6

Case: 18-11207

Date Filed: 05/13/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
F4-BERT PARR TUTTLE COURT OF APPF. ALS BUILDING
56 FonyBi Street, N.W.
Atlnta, Georgia 30303

DbvM ). Smith
Clerk of Corel

For ndet and forms visit

May 13,2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-11207-HH
Case Style: USA v. Michael Moore
District Court Docket No: 8:17-cr-00354-CEH-CPT-l
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41 (b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. 11. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@call.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Christopher Bereauist HH at 404-335-6169.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone#: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

• /.

